Report No. D-2008-061        March 7, 2008




   Controls Over Funds Used by the Air Force
      and National Guard Bureau for the
        National Drug Control Program
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CRIS            Commanders Resource Integration System
DASD (CN/CP/GT) Deputy Assistant Secretary of Defense for Counternarcotics,
                   Counterproliferation, and Global Threats
DFAS            Defense Finance and Accounting Service
DJMS-RC         Defense Joint Military Pay System, Reserve Component
DoD OIG         Department of Defense Office of Inspector General
GAFS-R          Air Force General Accounting and Finance System, Rehost
ONDCP           Office of the National Drug Control Policy
               Department of Defense Office of Inspector General
Report No. D-2008-061                                                      March 7, 2008
   (Project No. D2007-D000FD-0134.000)

         Controls Over Funds Used by the Air Force and National
          Guard Bureau for the National Drug Control Program

                                 Executive Summary

Who Should Read This Report and Why? DoD personnel working in the counterdrug
program should read this report. It discusses the internal controls over counterdrug funds
managed by the Air Force and National Guard Bureau.

Background. The Office of the Deputy Assistant Secretary of Defense for
Counternarcotics, Counterproliferation, and Global Threats receives funds annually for
the National Drug Control Program. These funds are reprogrammed to the Services and
Defense Agencies for use in the counterdrug mission. DoD reported $969.6 million in
obligations related to the counterdrug program for FY 2006. This amount included
$153.1 million of obligations reported by the Air Force and $262.3 million of obligations
reported by the National Guard Bureau.

Results. The Air Force and National Guard Bureau have not corrected previously
identified material management control weaknesses involving the tracking and reporting
of counterdrug funds. Specifically, the Air Force and National Guard were unable to
provide detailed transaction data to support $279 million of the $415.4 million
counterdrug obligations reported to the Deputy Assistant Secretary of Defense for
Counternarcotics, Counterproliferation, and Global Threats for FY 2006. As a result, a
sufficient audit trail did not exist to validate the reported obligations. The Deputy
Assistant Secretary of the Air Force for Budget and the Chief of the National Guard
Bureau should establish formal procedures for compiling a detailed universe of
transactions that supports the counterdrug obligation amounts annually reported to the
Deputy Assistant Secretary of Defense for Counternarcotics, Counterproliferation, and
Global Threats. Specifically, these procedures should utilize standardized data queries
and ensure that complete and accurate information is available in a timely manner to
support audits and evaluations of counterdrug funds required by the Office of National
Drug Control Policy in support of public law (Finding A).

Overall, the Air Force and National Guard Bureau had adequate controls in place to
ensure that counterdrug obligations and expenditures supported the counterdrug mission.
However, source documentation was not available to support obligations and
expenditures totaling $731,809. In addition, we identified two improper purchases
totaling $121,682. As a result of these deficiencies, the Air Force and National Guard
Bureau could not ensure that all counterdrug expenditures supported the counterdrug
mission and complied with Federal and DoD regulations. The Deputy Assistant Secretary
of the Air Force for Budget should establish controls to ensure that all counterdrug
transactions are identified by unique document identifier codes and are readily supported
by source documentation. The Chief, National Guard Bureau should initiate preliminary
reviews and possible corrective actions for the improper purchases that potentially

                                            i
violated the Purpose Statute and Bona Fide Needs Rule as discussed in the DoD
Financial Management Regulation. In addition, the Chief should enforce existing
purchasing procedures outlined in National Guard Regulation 500-2 and ensure that
controls are in place and consistently applied at all counterdrug organizations. The Chief
should also establish controls to ensure that all counterdrug transactions are readily
supported by source documentation and to monitor year-end purchases (Finding B).

Army National Guard soldiers who stopped working for the counterdrug program
received erroneous leave payments. Specifically, our limited review identified 31
erroneous payments valued at $79,537. As a result, the National Guard Bureau cannot
ensure that payments made for leave sold accurately reflect amounts earned. As of
September 1, 2007, outstanding leave balances totaling 63,827 days were scheduled to be
paid out for 8,600 National Guard soldiers at an estimated value of $7 million. The
Director, Standards and Compliance, Military Pay, Defense Finance and Accounting
Service, should identify and correct the causes for the inaccurate leave balances in the
Defense Joint Military Pay System-Reserve Component and ensure that the same
deficiencies will not occur in the scheduled replacement system, the Defense Integrated
Human Resources System. The Director should also coordinate with the Chief of the
National Guard Bureau to verify that all payments processed for leave sold in fiscal years
2006 and 2007 were valid and ensure that all future payments for outstanding leave are
valid prior to disbursement.

The Chief of the National Guard Bureau should coordinate with the Defense Finance and
Accounting Service to validate all payments for leave sold. The Chief should also ensure
that compensating manual controls are implemented to validate future payments for
outstanding leave until the deficiencies in the Defense Joint Military Pay System Reserve
Component can be corrected. Recouping erroneous amounts paid and avoiding future
erroneous payments will result in a potential monetary benefit to the National Guard.
However, this amount is not yet quantifiable. Ceasing all additional erroneous leave
payments will result in up to a maximum of $7 million of funds put to better use for the
National Guard Bureau. The full extent of potential monetary benefits will be
quantifiable after the National Guard Bureau implements the recommendations for
corrective action (Finding C).

Management Comments and Audit Response. The Deputy Assistant Secretary of the
Air Force for Budget and the Chief of the National Guard Bureau Counterdrug Division
concurred with the findings and recommendations. The Director, Standards and
Compliance, Military Pay, Defense Finance and Accounting Service, concurred with the
findings and partially concurred with the recommendations. In addition, the Director,
Defense Finance and Accounting Service, Defense Integrated Military Human Resources
System Integration Office, provided comments addressing the design deficiencies we
identified within the Defense Joint Military Pay System-Reserve Component and how
they would be corrected in the scheduled replacement system. The Deputy Assistant
Secretary of Defense for Counternarcotics, Counterproliferation, and Global Threats also
provided unsolicited comments. We consider all but one of the comments to be fully
responsive. The Chief of the National Guard Bureau Counterdrug Division comments
are partially responsive regarding the improper purchase by the Utah Air National Guard.
The Chief did not indicate whether a detailed review had been or would be performed
regarding a possible Antideficiency Act violation. We request that the Chief provide
comments on the final report by April 7, 2008. See the finding sections of the report for
a discussion of management comments and the Management Comments section for the
complete text of the comments.
                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              2

Review of Internal Controls                                             2

Findings
     A. Tracking and Reporting Counterdrug Funds                        3
     B. Counterdrug Obligations and Expenditures                       10
     C. Army National Guard Leave Payments                             17
         Potential Monetary Benefits                                   21


Appendixes
     A. Scope and Methodology                                          24
        Prior Coverage                                                 25
     B. Report Distribution                                            26

Management Comments
     Department of the Air Force                                       29
     Departments of the Army and the Air Force National Guard Bureau   30
     Defense Finance and Accounting Service                            34
     Deputy Assistant Secretary of Defense for Counternarcotics,
          Counterproliferation, and Global Threats                     38
Background
    This audit was performed to meet the requirements of Public Law 105-277,
    “Office of National Drug Control Policy Reauthorization Act of 1998,”
    October 21, 1998, as amended by Public Law 109-469, “Office of National Drug
    Control Policy Reauthorization Act of 2006,” on December 29, 2006. The Act
    requires National Drug Control Program agencies to submit a detailed accounting
    of all funds expended for counterdrug activities during the previous fiscal year to
    the Director of the Office of National Drug Control Policy (ONDCP). The
    submission is required no later than February 1 of each year and must be
    authenticated by the Inspector General for each agency. The report must then be
    submitted to Congress not later than April 1 of each year.

    ONDCP, a component of the Executive Office of the President, is responsible for
    developing and overseeing implementation of the national drug control policy;
    assessing and certifying the adequacy of national drug control programs and their
    budgets; and evaluating the effectiveness of the programs. The office issued
    ONDCP Circular, “Drug Control Accounting,” April 18, 2003, which was revised
    during the course of this audit on May 1, 2007. The Circular requires a detailed
    accounting submission from the chief financial officer, or other accountable
    senior level executive, of each agency to the Director of ONDCP. The detailed
    report must include a table highlighting prior years’ drug control obligations data
    and a narrative section making assertions regarding the obligation data.

    The Office of the Deputy Assistant Secretary of Defense for Counternarcotics,
    Counterproliferation, and Global Threats (DASD [CN/CP/GT]) is responsible for:

       •   developing and implementing DoD counterdrug policy;

       •   coordinating and monitoring DoD counterdrug plans and programs;

       •   directing the planning, programming, and budget formulation for the
           program;

       •   working with the Joint Staff, Unified Commanders, and Chiefs of the
           Reserve and National Guard, on all issues relating to the execution of
           DoD counterdrug programs and their missions; and

       •   reporting DoD counterdrug program results to ONDCP.

    There are four mission areas that encompass the scope of the DoD counterdrug
    program: (1) demand reduction, (2) domestic support, (3) intelligence and
    technology, and (4) international support.

    The DoD counterdrug program is funded by Congress through the DoD Central
    Transfer Account, where funds are appropriated to a single budget line and not
    directly to the Services and Defense Agencies. Funds are reprogrammed from the
    Central Transfer Account to the Services and Defense Agencies in the year of
    execution. The reprogramming process begins with reprogramming documents

                                         1
     prepared by DASD (CN/CP/GT), which are then forwarded to the DoD
     Comptroller. Funds are reprogrammed to the applicable budget activity at the
     Services by project code. The Services provide quarterly obligation reports by
     project code to DASD (CN/CP/GT), where they are compiled into an overall DoD
     counterdrug obligation report. The obligation and expenditure data provided by
     the Services are compared against their total annual counterdrug funding for each
     appropriation. DoD reported $969.6 million in obligations related to the
     counterdrug program for FY 2006. This amount included $153.1 million of Air
     Force obligations and $262.3 million of National Guard Bureau obligations.

     Historically, the DoD Office of Inspector General (DoD OIG), has performed a
     review attestation engagement on the obligation data reported by
     DASD (CN/CP/GT) and issued an Independent Auditor’s Report on the results.
     As part of this effort, DASD (CN/CP/GT) provides the overall DoD counterdrug
     obligation report for the latest fiscal year, and each Service is tasked with
     providing the detailed accounting transactions that support the reported amounts.
     Limited testing is then performed on the detailed accounting transactions. The
     most recent DoD OIG Report D-2007-052, “Independent Auditor’s Report on the
     DoD FY 2006 Detailed Accounting Report of the Funds Obligated for National
     Drug Control Program Activities,” January 29, 2007, concluded that the Air Force
     and National Guard had not implemented adequate procedures to support their
     reported obligations with detailed transaction listings.


Objectives
     The objective of the audit was to determine whether the Air Force and National
     Guard Bureau adequately accounted for funds appropriated for the National Drug
     Control Program. Specifically, we determined whether the Air Force and
     National Guard had adequate processes and controls in place to ensure accurate
     and timely recording of counterdrug obligations. See Appendix A for a
     discussion of the scope and methodology and prior coverage related to the audit
     objectives.


Review of Internal Controls
     We identified material management internal control weaknesses for the Air Force
     and National Guard Bureau as defined by DoD Instruction 5010.40, “Managers’
     Internal Control (MIC) Program Procedures,” January 4, 2006. DoD
     Instruction 5010.40 states that internal controls are the organization, policies, and
     procedures that help program and financial managers to achieve results and
     safeguard the integrity of their programs. Implementing all recommendations in
     this report will improve the Air Force and National Guard Bureau internal
     controls over tracking and reporting counterdrug funds and provide assurance to
     DoD that counterdrug funds are used for valid counterdrug program activities. A
     copy of the final report will be provided to the senior officials in charge of
     management controls for the Air Force and National Guard.

                                           2
            A. Tracking and Reporting Counterdrug
               Funds
            The Air Force and National Guard Bureau have not corrected previously
            identified material management control weaknesses involving the tracking
            and reporting of counterdrug funds. Specifically, the Air Force and
            National Guard were unable to provide detailed transaction data to support
            $279 million of the $415.4 million counterdrug obligations reported to
            DASD (CN/CP/GT) for FY 2006. The detailed transaction data were not
            available because Air Force and National Guard Counterdrug Program
            Offices had not developed and documented adequate compilation and
            reporting procedures. As a result, a sufficient audit trail did not exist to
            validate the reported obligations. The lack of a timely and accurate audit
            trail impedes authentication of the reported obligations as required by
            public law.


Criteria
     The Office of the Assistant Secretary of Defense for Special Operations/Low-
     Intensity Conflict issued a memorandum titled, “DoD Counternarcotics
     Obligation Guidance,” on August 25, 2005. The memorandum stated that it is
     imperative that obligation records include documentation that supports the
     obligation. Specifically, the memorandum established requirements for all DoD
     Components that receive counterdrug funding. The applicable Components must
     establish an account record that will support:

            •   an audit of the amounts reported as obligated at the end of the fiscal
                year, and

            •   a reconciliation to detailed transaction records.

     The Air Force does not have specific policies or procedures on tracking and
     reporting counterdrug funds. National Guard Regulation 500-2, “National Guard
     Counterdrug Support,” March 31, 2000, prescribes policies, procedures, and
     responsibilities governing the use of National Guard and DoD resources in the
     National Guard Counterdrug Support Program. However, this regulation does not
     address the procedures for reporting counterdrug obligation data to DASD
     (CN/CP/GT) and establishing an account record that will support an audit of the
     amounts reported.


Previously Identified Management Control Weakness
     The Air Force and National Guard Bureau have not corrected a material
     management control weakness related to the tracking and reporting of
     counterdrug funds that was previously identified by the DoD OIG. Specifically,
     the Air Force and National Guard Bureau have been unable to provide detailed
                                          3
accounting transactions to support counterdrug obligations and expenditures. The
DoD OIG has repeatedly identified this issue as a material management control
weakness.

Prior DoD OIG Reports. The DoD OIG issued Report No. D-2006-012,
“Report on Controls Over Funds Used by DoD for the National Drug Control
Program,” dated November 7, 2005, which identified a material management
control weakness related to the DoD Components’ accounting for counterdrug
funds reported to the DASD (CN/CP/GT). We recommended that
DASD (CN/CP/GT) require DoD Components to establish procedures to maintain
an audit trail for the amounts reported and establish a process to reconcile the
amount reported with detailed transaction records. The DASD (CN/CP/GT)
concurred with the recommendation and issued a policy memorandum requiring
detailed transaction support for all counterdrug obligations.

The DoD OIG issued Report No. D-2006-047, “Independent Auditor’s Report on
the DoD FY 2005 Detailed Accounting Report of the Funds Obligated for
National Drug Control Program Activities” on January 26, 2006. The report
concluded that the Military Components did not have adequate time to implement
procedures to satisfy the August 2005 DASD (CN/CP/GT) policy memorandum
requiring detail transaction support for all obligations. Subsequently, the DoD
OIG issued Report No. D-2007-052, “Independent Auditor’s Report on the DoD
FY 2006 Detailed Accounting Report of the Funds Obligated for National Drug
Control Program Activities” on January 29, 2007. The report concluded that Air
Force and National Guard had not implemented adequate procedures to support
their reported obligations with detailed transaction listings.

DASD (CN/CP/GT) Memorandum Requesting Corrective Actions. In
response to the most recent DoD OIG report, DASD (CN/CP/GT) issued a
memorandum to the Air Force Deputy Chief of Staff and the Chief of the National
Guard Bureau in February 2007 regarding the lack of improvement in accounting
procedures. The memorandum cited multiple DoD OIG audits that produced the
same findings, with no apparent improvement in accounting processes. In the
memorandum, DASD (CN/CP/GT) requested that the Air Force and National
Guard Bureau provide the specific steps they planned to take to improve the audit
trail for reported counterdrug obligations. The Air Force and National Guard
Bureau were also tasked to explain why reconciliation procedures were not in
place and to provide the immediate steps they were taking to employ proper
accounting procedures. The memorandum required a response by March 7, 2007.

As of the date of this report, the Air Force had not responded to the
DASD (CN/CP/GT) memorandum. The National Guard Bureau partially
responded to the memorandum on March 7, 2007. In the response, the Chief of
the National Guard Bureau Counterdrug Division stated that his office had not
had access to most of the detail-level data that the DoD OIG had requested but
that it was continuing to explore avenues by which to obtain the required data.
The Chief explained that for the Army National Guard, each state was operating
an independent obligation database not accessible by his office or by the Defense
Finance and Accounting Service (DFAS). The Chief also explained that the Air
National Guard systems were provided by the Air Force and were experiencing

                                    4
    problems with accessing and reporting obligation data to higher headquarters.
    The Chief stated that his office looked forward to exploring any paths that might
    open during the upcoming DoD OIG audit.


Air Force Counterdrug Reporting
    The Air Force counterdrug program office had not developed and documented
    adequate compilation and reporting procedures. Specifically, the Air Force was
    unable to provide detailed transaction data to support $37.6 of the $153.1 million
    counterdrug obligations reported to DASD (CN/CP/GT) for FY 2006. Air Force
    counterdrug personnel acknowledged that they had not established formal
    procedures for tracking and reporting counterdrug obligations and expenditures.

    DASD (CN/CP/GT) reprograms funds from the DoD Central Transfer Account to
    the Air Force Counterdrug Program Office, where a counterdrug program
    manager and financial analyst are responsible for tracking and reporting the
    funds. The funds are allocated to various Air Force and Joint Commands
    responsible for performing counterdrug missions. The funds are tracked quarterly
    by counterdrug project codes established by DASD (CN/CP/GT). The Air Force
    uses the Air Force General Accounting and Finance System-Rehost (GAFS-R)
    and the Commanders Resources Integration System (CRIS) to track counterdrug
    obligations. Specifically, the detailed accounting transactions are maintained
    within GAFS-R and the Air Force uses CRIS to extract data.

    A new financial analyst was assigned to the Air Force counterdrug program office
    in October 2006. The analyst informed us that up-to-date policies or procedures
    for tracking and reporting counterdrug funds had not been established. Therefore,
    the detailed transaction data supporting Air Force FY 2006 counterdrug
    obligations reported to DASD (CN/CP/GT) were compiled through attempted
    CRIS queries and data calls to the Air Force and Joint Commands that received
    counterdrug funding. Air Force counterdrug officials acknowledged that the
    transaction data were inaccurate and incomplete because queries of the CRIS
    system did not contain all required data and several Air Force and Joint
    Commands did not respond to data call requests.

    We determined that detailed transaction data supporting counterdrug obligations
    and expenditures were available at the Air Force and Joint Commands we visited.
    For example, approximately two-thirds of the FY 2006 Air Force counterdrug
    obligations were reported by Air Combat Command organizations. During a site
    visit to Langley Air Force Base, a budget analyst informed us that he developed a
    standardized data query to extract all FY 2006 counterdrug obligations and
    expenditures from CRIS. We tested the transactions and determined the universe
    was accurate and complete. The budget analyst stated that all Air Force
    counterdrug obligations and expenditures could be extracted from CRIS using a
    standardized data query. The Air Force counterdrug program office needs to
    work with CRIS functional experts and develop a standardized data query.




                                         5
National Guard Bureau Counterdrug Reporting
    The National Guard Bureau counterdrug program office had not developed
    adequate compilation and reporting procedures. Specifically, the National Guard
    was unable to provide detailed transaction data to support $241.4 million of the
    $262.3 million counterdrug obligations reported to DASD (CN/CP/GT) for
    FY 2006. National Guard Bureau counterdrug personnel stated they had not
    established formal policy or procedures on tracking and reporting counterdrug
    expenditures. In the March 7, 2007, memorandum to DASD (CN/CP/GT), the
    Chief of the Counterdrug Division stated that his office could not access the
    detailed transactions that support counterdrug obligations and expenditures.
    However, our review revealed that detailed transaction data was, in fact, available
    within other National Guard Bureau organizations. Specifically, we worked with
    the Air National Guard and Army National Guard financial management branches
    to obtain detailed transaction data to support the majority of the FY 2006
    counterdrug expenditures.

    DASD (CN/CP/GT) reprograms funds from the DoD Central Transfer Account to
    the National Guard Bureau Counterdrug Program Office, where personnel are
    responsible for tracking and reporting the funds. The funds are allocated to
    various Air National Guard and Army National Guard organizations responsible
    for performing counterdrug missions. The funds are tracked by counterdrug
    project codes established by DASD (CN/CP/GT).

    Transaction Data Provided by Counterdrug Officials. The data provided as
    support for National Guard counterdrug obligations and expenditures have not
    included sufficient detail to support an audit. The National Guard Bureau
    Counterdrug Division is responsible for reporting counterdrug obligations to
    DASD (CN/CP/GT). The counterdrug operations branch is primarily responsible
    for budget formulation and program execution. Personnel within this office
    obtained budgetary and summary-level counterdrug data from Army and Air
    Force management information systems and from DFAS and provided them for
    our attestation. However, the data did not include sufficient details for the
    individual transactions that supported the FY 2006 obligations reported to DASD
    (CN/CP/GT).

    Transaction Data Identified by Our Review. We contacted Army and Air
    National Guard financial management personnel and determined that detailed
    transaction data were available to support the majority of the FY 2006
    counterdrug obligations and expenditures.

           Army National Guard Data. We determined that the Army National
    Guard Financial Services Center, located at DFAS Indianapolis, has access to all
    Army National Guard obligation and expenditure detailed transactions for each of
    the 54 states and territories that receive counterdrug funds. A query was
    developed to extract all counterdrug expenditures from the official Army
    accounting system database, and detailed transaction data were obtained for the
    six National Guard sites we selected for audit. The detailed transaction listings
    included all FY 2006 Army National Guard personnel pay costs. The transaction

                                         6
    listings also included operations and maintenance expenditures for items such as:
    temporary duty charges, contracts for supplies, Government purchase card
    transactions, professional and management services, and equipment and
    communications charges. We coordinated with the Army National Guard Budget
    Readiness Center to verify that the data was accurate and complete.

            Air National Guard Data. We coordinated with Air National Guard
    financial management personnel and counterdrug operations personnel and
    developed a CRIS query provided detailed transaction listings supporting a
    majority of FY 2006 counterdrug expenditures. The query results included three
    separate transaction listings supporting personnel, travel, and operations and
    maintenance expenditures. Air National Guard financial management personnel
    stated that detailed transactions were not yet available to support personnel costs
    related to Active Guard reserve or the Air National Guard retired pay accrual but
    that were working to incorporate those costs into CRIS for FY 2008.


Conclusion
    The Air Force and National Guard Bureau counterdrug obligation data reported to
    DASD (CN/CP/GT) lacks integrity without detailed support. The annual reporting
    requirements were established by Public Law to ensure that DoD Components
    who receive counterdrug funds use these funds for valid counterdrug program
    activities. The lack of a timely and accurate audit trail impedes the authentication
    of the reported obligations required by public law.

    The Air Force has the capability to develop a standardized CRIS data query that
    would provide most of the Air Force counterdrug obligation and expenditure
    transactions. In addition, detailed transaction support is available through
    standardized data queries for the majority of the Army and Air National Guard
    counterdrug obligation and expenditures. However, the identification and
    development of audit trails is a management responsibility. Air Force and
    National Guard Bureau counterdrug officials need to provide detailed support for
    the counterdrug obligations reported to DASD (CN/CP/GT). Establishing formal
    procedures for identifying a detailed universe of transactions and testing the data
    for accuracy will help ensure that counterdrug funds are used appropriately.


Recommendations and Management Comments
    A.1. We recommend that the Deputy Assistant Secretary of the Air Force for
    Budget establish formal procedures for compiling a detailed universe of
    transactions that support the counterdrug obligation amounts annually
    reported to the Deputy Assistant Secretary of Defense for Counternarcotics,
    Counterproliferation, and Global Threats. Specifically, these procedures
    should:

          a. Use standardized data queries of the Air Force Commanders
    Resources Integration System.

                                         7
       b. Ensure that complete and accurate data are made available in a
timely manner to support audits and evaluations of counterdrug funds
required by the Office of National Drug Control Policy in support of Public
Law.

Air Force Comments. The Deputy for Budget, Department of the Air Force,
concurred with the recommendations. The Deputy stated that standardized data
query procedures have been incorporated into the Air Force FY 2008 Fiscal
Guidance and will be completed by January 31, 2008.

A.2. We recommend that the Chief, National Guard Bureau:

       a. Develop formal reporting procedures for compiling a detailed
universe of transactions that support the counterdrug obligation amounts
annually reported to the Deputy Assistant Secretary of Defense for
Counternarcotics, Counterproliferation, and Global Threats, and
incorporate the procedures within National Guard Regulation 500-2.

Departments of the Army and the Air Force National Guard Comments. The
Chief of the Counterdrug Division, National Guard Bureau, concurred and stated
they will coordinate with appropriate accounting representatives to provide
detailed transaction documentation supporting year-end counterdrug execution
data. The compilation requirements will be incorporated into the next draft of the
National Guard Regulation 500-2, as well as the standard operation procedures
for the FY 2007 reporting cycle.

       b. Ensure coordination between responsible National Guard Bureau
Counterdrug and Army and Air National Guard financial management
personnel for the development of standardized data queries that will provide
detailed transaction data for all National Guard Bureau counterdrug
expenditures.

Departments of the Army and the Air Force National Guard Comments. The
Chief of the Counterdrug Division, National Guard Bureau, concurred and stated
that counterdrug staff will obtain access to systems and develop queries to gather
detailed counterdrug transaction data.

        c. Ensure timely availability of the detailed transaction universe to
satisfy Office of National Drug Control Policy accounting and annual
DoD Office of Inspector General attestation requirements.

Departments of the Army and the Air Force National Guard Comments. The
Chief of the Counterdrug Division, National Guard Bureau, concurred and stated
that data will be provided in a timely manner.

Deputy Assistant Secretary of Defense for Counternarcotics,
Counterproliferation, and Global Threats Comments. Although not required
to comment, the Deputy Assistant Secretary expressed deep concern that during
the last two years our audits identified a material management control weakness
related to the Air Force and National Guard Bureau accounting for

                                    8
Counternarcotics funds. After the last report, the Deputy Assistant Secretary
issued policy guidance (dated February 27, 2007) requesting that the Air Force
and National Guard Bureau explain why reconciliation procedures were not in
place and report the immediate steps they were taking to employ proper
accounting procedures. Although both agencies had reported that they were
taking steps to improve their accounting procedures, the Deputy Assistant
Secretary said that his office would identify responsible officials and solicit status
reports on obligation accounting. For a full text of the Deputy Assistant
Secretary’s comments, see the Management Comments section of the report.




                                      9
            B. Counterdrug Obligations and
               Expenditures
            Overall, the Air Force and National Guard Bureau had adequate controls
            in place to ensure that counterdrug obligations and expenditures supported
            the counterdrug mission. However, source documentation was not
            available to support obligations and expenditures totaling $731,809. In
            addition, we identified two improper purchases totaling $121,682. The
            unsupported costs resulted primarily from Air Force automated financial
            system limitations, which precluded a complete audit trail for items
            ordered through DoD supply systems. The improper purchases occurred
            because existing procedures were not followed and because the National
            Guard Bureau did not establish adequate controls over year-end funds. As
            a result of these deficiencies, the Air Force and National Guard Bureau
            could not ensure that all counterdrug expenditures supported the
            counterdrug mission and complied with Federal and DoD regulations.


Criteria
     The Air Force does not have specific policies or procedures that address
     counterdrug obligations and expenditures. National Guard Regulation 500-2,
     “National Guard Counterdrug Support,” March 31, 2000, prescribes policies,
     procedures, and responsibilities governing the use of National Guard and DoD
     resources in the National Guard Counterdrug Support Program. This regulation
     applies to all Army and Air National Guard organizations. Specifically, chapter 2
     provides that all National Guard counterdrug funds are part of the DoD
     counterdrug appropriation and will not be used for purposes other than the
     National Guard counterdrug program. Chapter 6 of the regulation specifies that
     the use of counterdrug funds is limited by Congressional mandate and that
     equipment purchased with such funds cannot be reallocated to other organizations
     and, by law, must be identified as counterdrug equipment and maintained under
     counterdrug control.

     Public Law 31 U.S.C. 1301(a) prohibits the use of appropriations for purposes
     other than those for which they were appropriated and is generally referred to as
     “the Purpose Statute.” Public Law 31 U.S.C. Section 1502 (a) provides for the
     “Bona Fide Needs Rule,” which states that the balance of a fixed-term
     appropriation is available only for payment of expenses properly incurred during
     the period of availability or to complete contracts properly made within that
     period.


Counterdrug Transactions Reviewed
     We reviewed 471 counterdrug obligations and expenditures totaling $128,041,985
     at 12 individual sites that received counterdrug funds during FY 2006. The sites

                                         10
 visited included six Air Force organizations and Joint Commands that received
 FY 2006 counterdrug funding from the Air Force Counterdrug Program Office.
 The sites visited also included six National Guard Bureau Counterdrug Joint Task
 Force Headquarters that received FY 2006 counterdrug funding from the National
 Guard Bureau Counterdrug Division.

 In order to validate the sampled counterdrug obligations and expenditures, we
 reviewed the supporting detailed accounting transactions. These transactions
 were generally identified by unique document identifier codes that provided an
 audit trail to the supporting source documentation. We judgmentally selected
 transactions at each of the locations to verify whether amounts obligated and
 expended were supported by source documentation and were used to support the
 counterdrug mission. The sampled transactions included personnel and travel
 costs, Government purchase card expenditures, and contracts for goods or
 services. The Air Force and National Guard Bureau generally had adequate
 controls in place to ensure that the funds were supported by source documentation
 and used to support the counterdrug mission (See Table 1 for details).



                      Table 1. Summary of Sample Items Reviewed

                                No.    Total Sample     Valid and        Not      Improper
   Counterdrug Site Visited    Items      Value         Supported     Supported   Purchases
Langley Air Force Base          53     $ 56,884,005    $ 56,617,870    $266,135   $        0
Davis-Monthan Air Force Base    50       34,827,363      34,820,216       7,147            0
U.S. Central Command            22       16,123,456      16,064,171      59,285            0
Joint Task Force North          23        5,249,040       5,249,040           0            0
California National Guard       64        3,059,749       3,006,408      53,341            0
Arizona National Guard          52        2,621,868       2,610,407      11,461            0
Texas National Guard            58        2,609,197       2,590,708      18,489            0
Florida National Guard          39        2,288,721       2,266,099       6,484        16,138
Utah National Guard             38        2,242,940       2,121,179      16,217       105,544
Air Force Drug Testing Lab      19        1,150,320        891,738      258,582            0
Kentucky National Guard         50           777,895       743,227       34,668            0
U.S. Northern Command           3            207,431       207,431            0            0
 Totals                        471     $128,041,985    $127,188,494    $731,809   $121,682




                                        11
Unsupported Counterdrug Transactions
    Source documentation was not available to support obligations and expenditures
    totaling $731,809, primarily because of Air Force automated financial system
    limitations. The limitations precluded an audit trail for items ordered through
    DoD supply systems. Specifically, transactions totaling $493,422 lacked unique
    document identifier codes in the Air Force financial system. The remaining
    $238,387 of unsupported costs included various travel, purchase card, and
    operation and maintenance transactions for Air Force and National Guard Bureau
    organizations. As a result, the Air Force and National Guard Bureau could not
    ensure that all counterdrug obligations supported the counterdrug mission and
    complied with Federal and DoD regulations.

    Selective transactions supporting Air Force counterdrug obligations lacked unique
    document identifier codes. These transactions consisted of material ordered
    through the Air Force Standard Base Supply System and the Defense Medical
    Logistics Support System. The Air Force uses GAFS-R for counterdrug
    obligations. Air Force counterdrug activities sometimes requisition daily
    operational needs through various DoD supply systems (for instance, drug testing,
    prevention, and awareness materials). The ordering process involves an interface
    between the applicable supply system and GAFS-R. If an item is in stock and
    shipped, a document identifier of “MAT-ISS” is posted in GAFS-R. On the other
    hand, if an item is unavailable and back-ordered, a document identifier of “IE” is
    posted in GAFS-R. Either situation makes it extremely difficult to identify the
    specific items that were ordered. A unique document identifier is a key element
    for establishing and maintaining an audit trail, as well as for determining what
    was purchased.

    Defense Medical Logistics Support System. During our site visit to the Air
    Force Drug Testing Lab, we reviewed a sample of transactions lacking a unique
    document identifier code. Specifically, we selected five transactions with
    document identifier codes of “MAT-ISS” and “IE” totaling $258,582.
    Counterdrug personnel at the Air Force Drug Testing Lab could not provide any
    source documentation to identify the specific items that they had requisitioned
    from the Defense Medical Logistics Support System. Air Force personnel stated
    that the requisitioned items lose their identity because of system limitations.
    Therefore, we could not determine the validity of the transactions.

    Air Force Standard Base Supply System. During a site visit to Langley Air
    Force Base, we determined that the costs for four sampled transactions, valued at
    $227,076, could not be supported by source documentation. These transactions
    contained document identifier codes of “MAT-ISS” and “IE” and involved items
    ordered through the Air Force Standard Base Supply System. During a
    subsequent visit to Davis-Monthan Air Force Base, a budget analyst informed us
    that only a limited capability existed to identify items ordered through the Air
    Force Standard Base Supply System. He explained that the transaction date in
    GAFS-R could be used to query the Daily Document Register (D04 Report) in the
    Standard Base Supply System. However, he stated that this query capability was
    also limited because the relevant data were retained in the Standard Base Supply

                                        12
    System for only 30 days. The data would be available after 30 days only if the
    supply squadron that requisitioned the items archived the data for some reason.

    Significance of Unidentified Transactions. We could not specifically identify
    the total number and value of the FY 2006 transactions lacking unique document
    identifier codes because Air Force could not provide a complete and accurate
    universe of counterdrug transactions, as discussed in Finding A. However, our
    review of the FY 2005 Air Force universe of counterdrug obligations identified
    transactions totaling $11.7 million that lacked unique document identifier codes.
    These transactions comprised approximately 8 percent of the total FY 2005 Air
    Force counterdrug obligations.


Improper Purchases
    We identified two improper purchases totaling $121,682. The improper
    purchases occurred because existing procedures were not followed and because
    the National Guard Bureau did not establish adequate controls over year-end
    counterdrug funds. As a result, the National Guard Bureau could not ensure that
    all counterdrug obligations supported the counterdrug mission and complied with
    Federal and DoD regulations.

    Purchase of Laptop Computers. During our site visit to the Utah Air National
    Guard we identified an improper purchase that was made using counterdrug
    funds. Specifically, on September 25, 2006, Utah Air National Guard personnel
    used counterdrug funds to purchase 100 laptop computers, valued at $105,544, for
    organizations at the Utah Air National Guard base that were not involved with the
    counterdrug program. This purchase did not comply with National Guard
    Regulation 500-2, which specifies that all National Guard counterdrug funds are
    part of the DoD counterdrug appropriation and will not be used for purposes other
    than the National Guard counterdrug program. In addition, this purchase
    potentially violated Federal appropriation laws, including the Purpose Statute and
    the Bona Fide Needs Rule.
    The counterdrug mission for the Utah Air National Guard is performed by the
    169th Intelligence Squadron in support of the Senior Scout Federal Program. The
    Squadron is one of several tenant organizations on the Utah Air National Guard
    Base, located in Salt Lake City Utah. The Contracting and Comptroller’s Offices
    of the Utah Air National Guard’s 151st Air Refueling Wing provide financial
    management and contracting support for the 169th Intelligence Squadron.

    During FY 2006, the Utah Air National Guard’s 151st Air Refueling Wing had an
    unfunded requirement for laptop computers. In September 2006, a budget analyst
    for the 151st Air Refueling Wing’s Comptroller Office became aware of excess
    counterdrug funds that belonged to the 169th Intelligence Squadron. The budget
    analyst instructed the chief of the Base Planning Branch to prepare a purchase
    order for 100 laptop computers and to use the counterdrug funds as the source of
    funding. The contract was signed on September 25, 2006, and the computers
    were delivered on October 31, 2006. The budget analyst stated that he received
    permission from the 169th Intelligence Squadron’s Resource Advisor to make the

                                        13
    purchase. The Resource Advisor for the Squadron informed us that he did not
    recall authorizing the purchase. Regardless, neither individual had the authority
    to direct the use of counterdrug funds for other purposes. A representative from
    National Guard Bureau headquarters who accompanied us on our site visit
    informed us that the purchase would never have been approved if it had been
    brought to the attention of the appropriate headquarters personnel, as it should
    have been.

    During our site visit in June 2007, we determined that 65 of the computers were
    issued to various tenant organizations on the Utah Air National Guard base. None
    of the 65 computers were used by counterdrug personnel, nor could they be used,
    because the model that was purchased did not meet applicable security
    requirements of the 169th Intelligence Squadron. In addition, we physically
    verified that the remaining 35 laptops had not been issued and were in storage.
    Not only were the computers used for other-than-counterdrug purposes, but there
    was not a bona fide need in FY 2006 for 100 computers by the 169th Intelligence
    Squadron or the 151st Air Refueling Wing.

    Purchase of Plasma Televisions. During our site visit to the Florida National
    Guard Joint Force Headquarters we identified another improper purchase that was
    made using counterdrug funds. The purchase was for 10 liquid crystal display
    televisions, each with 42-inch screens, for use at the Florida National Guard Joint
    Force Headquarters. The contract for the televisions and necessary mounting
    brackets, valued at $16,138, was signed on September 30, 2006. Delivery took
    place in the following fiscal year, and payment was made in November 2006.
    Florida National Guard personnel stated that the televisions were used for
    operational and information purposes. However, during our site visit in
    June 2007 we observed that many of the televisions were located in small offices
    of counterdrug officials and were not in use. In addition, we determined that the
    type and quantity of televisions purchased was not consistent with other sites we
    visited.

    We asked personnel from the National Guard Bureau Headquarters Counterdrug
    Division to review and comment on the purchase. National Guard Bureau
    Headquarters counterdrug personnel responded to our request by stating that the
    purchase was valid because the televisions were used in the Florida National
    Guard’s operations center and were needed for ongoing missions within the state.
    However, we still question the timing of the transaction and the type and quantity
    of items purchased.


Conclusion
    A majority of the transactions we reviewed were supported by source
    documentation and represented obligations and expenditures that supported the
    DoD counterdrug mission. However, we determined that source documentation
    was not available to support obligations and expenditures totaling $731,809. The
    Air Force and National Guard Bureau need to establish controls to ensure that all
    counterdrug transactions are identified by a unique document identifier code and

                                        14
    are readily supported by source documentation. Public Law 105-277 requires the
    DoD Inspector General to authenticate the detailed accounting of all funds
    expended for DoD counterdrug activities each year. This authentication cannot
    be accomplished if documentation is not available to support counterdrug
    obligations and expenditures.

    In addition, we identified 2 improper purchases totaling $121,682 that were made
    in the last week of the fiscal year and were not in compliance with existing
    National Guard Bureau regulations. These purchases involve potential violations
    of the Antideficiency Act. According to the DoD 7000.14-R, the “DoD Financial
    Management Regulation,” volume 14, chapter 2, “Violations of the
    Antideficiency Act,” failure to comply with the Bona Fide Needs Rule and the
    Purpose Statute are violations of the Antideficiency Act. DoD 7000.14-R,
    volume 14, chapter 10, “Violations-Causes, Prevention and Correction,” October
    2004, states that all violations of the Antideficiency Act must be corrected with
    the proper funding.


Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Deputy Assistant Secretary of the Air Force for
    Budget establish controls to ensure that all counterdrug transactions are
    identified by a unique document identifier code and are readily supported by
    source documentation.

    Air Force Comments. The Deputy for Budget, Department of the Air Force,
    concurred and stated they are working to obtain access to systems in order to
    produce the required transaction data. Until access is obtained, the Air Force
    FY 2008 Fiscal Guidance directs program managers to maintain copies of supply
    transaction information.

    B.2. We recommend that the Chief, National Guard Bureau:

           a. Initiate preliminary reviews and possible corrective actions for the
    improper purchases that potentially violated the Purpose Statute and Bona
    Fide Needs Rule as discussed in the DoD Financial Management Regulation.
    The circumstances surrounding the purchases should also be reviewed and
    appropriate actions should be taken against the responsible individuals.

    Departments of the Army and the Air Force National Guard Comments. The
    Chief of the Counterdrug Division, National Guard Bureau, concurred with the
    recommendation. The Chief stated that the Utah computer purchase has been
    adjusted to appropriate non-counterdrug funds, and the Air National Guard no
    longer considers it to be a potential Antideficiency Act violation. Regarding the
    Florida television purchase, the Chief stated that program managers, fiscal
    accountability offices, and fiscal internal review agencies at the State level will
    conduct a detailed review of the circumstances surrounding the possible
    violations of the Purpose Statute and the Bona Fide Needs Rule. Actions taken

                                        15
against individuals found responsible will be reported to the National Guard
Bureau Internal Review Office.

Audit Response. The Chief of the National Guard Bureau Counterdrug Division
comments are partially responsive regarding the Utah computer purchase. The
Chief did not indicate whether a detailed review had been or would be performed
on the circumstances surrounding a possible Antideficiency Act violation.
Adjusting the purchase to appropriate non-counterdrug funds may not have
completely remedied the potential Purpose Statute violation. A review should be
performed to determine whether the purchase represented a necessary expense.
During our July 2007 site visit, we physically verified that 35 of the
100 computers purchased in September 2006 had never been used and were in
storage. Not only were the computers used for other-than-counterdrug purposes,
there did not appear to be a need for 100 computers by the 169th Intelligence
Squadron or the 151st Air Refueling Wing. We request that the Chief provide
comments on the final report by April 7, 2008.

       b. Enforce existing purchasing procedures outlined in National
Guard Regulation 500-2 and ensure that controls are in place and are
consistently applied at all counterdrug organizations.

Departments of the Army and the Air Force National Guard Comments. The
Chief of the Counterdrug Division, National Guard Bureau, concurred and stated
that United States Property Fiscal Officer is responsible for all controls over
federal expenditures. National Guard Bureau counterdrug headquarters personnel
will initiate a policy letter requiring each United States Property Fiscal Officer to
ensure that all counterdrug expenditures are supported by appropriate source
documentation, and counterdrug personnel will monitor compliance through staff
visits.

       c. Establish controls to ensure that all counterdrug transactions are
readily supported by source documentation.

Departments of the Army and the Air Force National Guard Comments. The
Chief of the Counterdrug Division, National Guard Bureau, concurred and stated
that counterdrug headquarters personnel will initiate a policy letter requiring each
United States Property Fiscal Officer to ensure that all counterdrug expenditures
are supported by appropriate source documentation. Counterdrug personnel will
monitor compliance through staff visits.

      d. Establish controls to monitor year-end purchases made with
counterdrug funds to ensure effective use of the funds in support of the DoD
counterdrug mission.

Departments of the Army and the Air Force National Guard Bureau
Comments. The Chief of the Counterdrug Division, National Guard Bureau,
concurred and stated that they will initiate a policy letter establishing additional
controls on year-end counterdrug expenditures and require United States Property
Fiscal Officers to enforce these controls. Counterdrug personnel will monitor
compliance through staff visits.

                                     16
           C. Army National Guard Leave
              Payments
           Army National Guard soldiers who stopped working for the counterdrug
           program received erroneous leave payments. Specifically, our limited
           review identified 31 erroneous payments valued at $79,537. The errors
           occurred because of deficiencies within the Defense Joint Military Pay
           System, Reserve Component (DJMS-RC), and because compensating
           manual controls were not adequately implemented. As a result, the
           National Guard Bureau cannot ensure that payments made for leave sold
           accurately reflect amounts earned. As of September 1, 2007, outstanding
           leave balances totaling 63,827 days were scheduled to be paid out for
           8,600 National Guard soldiers at an estimated value of $7,020,970.


Army National Guard Leave Process
    National Guard Bureau soldiers are paid through DJMS-RC. Active duty
    personnel serving 30 consecutive days or more accrue leave at the rate of 2.5 days
    a month, or 30 days annually. Except when authorized special leave accrual,
    soldiers may accrue and carry a maximum of 60 days of leave from the previous
    year into the next. By law, soldiers are allowed to sell up to a total of 60 days of
    leave during their military career. A master leave record is maintained for each
    National Guard Soldier within DJMS-RC that is supposed to track leave earned,
    used, and sold.

    Soldiers leaving the National Guard counterdrug program can either take terminal
    leave or sell their outstanding leave. Terminal leave is defined as time off granted
    to assist separating soldiers with their personal affairs, including retirement.
    Counterdrug officials stated that most soldiers take terminal leave. In addition,
    soldiers transferring to other active duty assignments may transfer their
    outstanding leave balances to another pay system. DJMS-RC is designed to cash
    out any outstanding leave balances when there is a break in the dates of active
    duty or 11 months after a soldier’s tour is complete.

    National Guard personnel at the sites we visited questioned the validity of the
    leave information maintained in DJMS-RC, and many stated that they maintain
    their own manual record, which they considered to be the most reliable leave
    record balance. Once the final terminal leave transaction is processed (either
    because of taking terminal leave or because it was sold) National Guard Bureau
    payroll personnel do not monitor leave balances in DJMS-RC for soldiers who
    have left National Guard service.

    As part of our audit of the counterdrug obligations and expenditures, we obtained
    detailed transaction listings for all FY 2006 Army National Guard personnel pay
    costs. Our analysis of the data determined that some soldiers received individual
    payments 11 months after their last steady salary payment. We selected these
    individual payments and requested support from the responsible National Guard
    organizations. We determined that many of these individual payments were
                                         17
    erroneous. At least one erroneous leave payment occurred at each of the six audit
    site locations we visited, and our limited review identified 30 erroneous payments
    valued at $79,537. We also identified inaccurate outstanding leave balances in
    DJMS-RC. National Guard counterdrug personnel we interviewed were generally
    unaware of inaccurate outstanding leave balances or that erroneous leave
    payments were made to Army National Guard soldiers after they left the
    counterdrug program.

    To illustrate, one payment we sampled involved an Army National Guard soldier
    who retired in December 2005. The individual took 45 days of terminal leave,
    exhausting his leave balance. In November 2006, DJMS-RC disbursed a payment
    of $5,671 for 58.5 days of leave. Another soldier retired in March 2006 and took
    18 days of terminal leave, exhausting his leave balance. In February 2007,
    DJMS-RC disbursed a payment of $2,839 for 18.5 days of leave. In both
    instances, National Guard Bureau payroll personnel were unaware that the
    payments occurred but, based on our audit, took immediate action and issued debt
    letters to recover the amounts erroneously paid.

    We also identified payments made to Army National Guard soldiers who had a
    gap in their active duty order dates. The payments occurred when active duty
    service dates were not consecutive and DJMS-RC assumed active duty ended.
    DJMS-RC recognizes a break in service dates at the completion of a soldier’s
    service duty and automatically pays any outstanding leave balance. For example,
    short-term orders ended for an individual on July 31, 2006, and his follow-on
    orders did not start until after August 1, 2006. Because of the gap in consecutive
    service dates, DJMS-RC paid his 24.5 day outstanding leave balance totaling
    $2,830. National Guard Bureau payroll personnel were unaware of the payment
    until it was brought to their attention during our audit.

    A gap in active duty orders also resulted in a soldier receiving $2,198 in
    November 2006 for 32 days of leave. Less than six months later this soldier had
    an outstanding leave balance of 44.5 days in DJMS-RC. This balance was
    inaccurate because National Guard soldiers on active duty orders only accrue
    2.5 days of leave per month, which means the maximum leave balance the soldier
    could legally have accrued during the 6-month time period was 15 days.
    Counterdrug officials were unable to explain why the outstanding leave balance
    was 29.5 days greater than what the soldier should have earned during the time
    period in question.


DJMS-RC System Design Deficiencies
    DJMS-RC did not maintain accurate leave balances and made erroneous
    payments without confirming their validity. In addition, DJMS-RC outstanding
    leave balances did not reconcile to leave balances maintained by National Guard
    payroll technicians once final leave settlements and all final out-processing were
    complete. DFAS personnel acknowledged that system design deficiencies existed
    within DJMS-RC and provided three reasons why outstanding leave balances
    might be incorrect. All three reasons are provided in detail below, and all require

                                        18
manual “file fixes” to correct leave balances. DJMS-RC personnel stated that file
fixes require manually updating system files that cannot be corrected by
processing transactions. Absent these manual fixes, DJMS-RC will continue to
maintain erroneous leave balances and cash out any remaining balance 11 months
after a soldier’s tour is complete.

        DJMS-RC was designed to accept a maximum of 24 leave entries.
Soldiers on long-term orders regularly exceed 24 cumulative leave entries. Leave
entries greater than 24 will reject back to the Guard unit. However, if rejects go
unnoticed, the leave balance is not reduced. For example, a Kentucky National
Guard soldier was improperly paid $1,928 for 10 days of leave because DJMS-
RC rejected three leave slips that should have reduced the leave balance. The
rejections occurred because the soldier had already accumulated 24 leave entries
in DJMS-RC. In these situations, the Guard unit must notify Army Military Pay
Operations to have the accounts manually fixed. The fix basically resets the leave
balance so that the 24 leave entries can restart. The Florida counterdrug
coordinator stated that his office tracks all leave balances outside of DJMS-RC
because many of his soldiers have more than 24 leave entries, and the balances
within DJMS-RC are unreliable. Additional counterdrug personnel stated they
wait and combine leave entries to keep the number of entries from exceeding 24.

        DJMS-RC was not designed to handle leave balances greater than
99.5 days. Any soldier on counterdrug orders for more than 3 years will
accumulate leave earned and used greater than 99.5 days. Both of these leave
categories are used in the calculation to arrive at an individual’s ending leave
balance. The system truncates the balance, therefore reducing the outstanding
leave balance. Because the leave balance is a calculated field on the leave master
record, it is possible for the leave balance to be incorrect based on the truncated
balance. For example, a soldier’s prior-leave-used balance of 105 days appears as
5 days, and the missing 100 days is not considered in the leave balance
calculation. Again, file fixes are required to adjust leave balances and prevent
incorrect outstanding balances. These adjustments take place without
notification.

        DJMS-RC was not designed to move leave-balances-sold from old to new
leave master records. Each time there is a break in a soldier’s orders, DJMS-RC
establishes a new leave master record. When this occurs, the previous-leave-sold
information is not transferred to the new leave master record. If a Guard unit
processes transactions to sell leave and subsequently modifies the tour start and
stop dates, the outstanding leave balances transfer to the new leave master record,
but the leave sold does not. As a result, the previously-sold-leave is unrecorded.
For example, a soldier requests a leave settlement in September 2005 and sells
25 days of leave. In March 2007, the unit processes another leave settlement and
sells 15 days. Subsequent to these leave sales the tour dates are modified, and, as
a result, a new leave master record is created. Now the leave master record shows
a leave balance of 40 days but does not show that 40 days of leave have been
sold. Therefore, the soldier has an overstated outstanding leave balance of 40
days. Again, file fixes are required when this situation occurs.




                                    19
Compensating Manual Controls
    National Guard Bureau Financial Services Center personnel stated that they
    prepare and distribute bi-weekly exception reports to each Guard Bureau state
    financial manager and military pay supervisor. One of the exception reports,
    titled “Leave Remaining Mobilization and Non-Mobilization Accounting
    Processing Code,” lists all outstanding leave balances for all soldiers after their
    tours are complete and contains outstanding leave balances for all Army National
    Guard personnel. Personnel from the Financial Services Center stated that the
    first exception report was sent out around July 2006. The instructions distributed
    with the exception report request that users research leave records and either post
    leave corrections or pay out the remaining balance. The instructions state that
    leave will automatically pay out 11 months past the non-mobilization tour stop
    date and could result in overpayment.

    National Guard Bureau Financial Services Center personnel stated they use a
    negative confirmation process with the outstanding leave exception report. This
    means that without a response from Guard units, disbursements automatically
    process. The December 2006 report we reviewed listed more than
    11,400 individuals who left Military Service and showed a total of 92,930 days of
    outstanding leave. One of our audit site locations, the California National Guard,
    had more than 750 individuals, with outstanding leave balances totaling
    9,229 days. However, counterdrug payroll personnel we contacted during the
    audit were either unaware of the monthly leave exception report or did not
    provide input to update the report. In addition, we determined that 18 individuals
    were listed on the report that we identified in our sample as having received
    erroneous payments. The erroneous payments for these individuals might have
    been avoided if payroll personnel at the respective National Guard units had
    reviewed the leave exception report and taken the necessary corrective actions.


Management Actions
    National Guard Bureau counterdrug personnel took corrective action in
    establishing outstanding debt collections for the majority of the erroneous
    payments identified during the audit. Counterdrug personnel provided copies of
    debt letters and, in some cases, copies of deposits when payments were received.
    As of the date of the report, several payments were still being investigated, and
    counterdrug officials stated that debt collections would be established.

    DFAS personnel informed us that system changes to DJMS-RC will not take
    place because it is going to be replaced by the Defense Integrated Human
    Resources System, which is currently in development and scheduled to be
    implemented in 2008. We expressed concerns to DFAS personnel regarding how
    the leave balance issues would be handled by the new system. DFAS personnel
    agreed to forward our questions to the Defense Integrated Human Resources
    System conversion team for action.


                                        20
Referral to National Guard Bureau Inspector General
     As a result of erroneous payments identified early in the audit, we issued a
     memorandum on May 23, 2007, to the National Guard Bureau Inspector General.
     The memorandum included details regarding inaccurate outstanding leave
     balances and erroneous leave payments made to Army National Guard soldiers
     who left the Guard in FY 2005 and 2006. We requested that the National Guard
     Bureau Inspector General describe actions taken or planned to determine the
     overall magnitude of erroneous payments. We made the referral because the
     scope of our review was limited to FY 2006 counterdrug expenditures at National
     Guard units in six states. We were concerned that the erroneous pay issue could
     apply to additional National Guard Bureau personnel and others paid from
     DJMS-RC. The National Guard Bureau Inspector General referred the issue to
     the National Guard Bureau Internal Review staff. We met with National Guard
     Bureau Internal Review personnel, as well as DFAS personnel responsible for
     DJMS-RC. As a result, the National Guard Bureau Internal Review staff is
     conducting an audit of all outstanding leave balances and leave sold payments for
     National Guard personnel.


Conclusion
     Army National Guard soldiers who left Military Service in FY 2005 and 2006
     were paid a total $79,537 to which they were not entitled because DJMS-RC
     made payments without confirming their validity. In addition, National Guard
     counterdrug personnel were unaware that DJMS-RC was disbursing erroneous
     leave payments. The erroneous payments will continue until controls are
     established to ensure the validity of the outstanding leave balances prior to
     disbursement. Personnel at the Army National Guard Bureau Financial Service
     Center informed us that they were considering a change to the outstanding leave
     payment process that would involve the removal of outstanding DJMS-RC leave
     balances 7 months after soldiers leave Military Service. National Guard
     personnel stated that if this change takes place, valid leave balances will have to
     be established on an individual basis through the DJMS-RC case management
     system. The proposed change may help to reduce the number of erroneous
     payments. However, DJMS-RC personnel need to identify why erroneous
     outstanding leave balances occur in DJMS-RC. The outstanding leave processing
     issue must be addressed immediately, because, as of September 1, 2007,
     outstanding leave balances totaling 63,827 days were scheduled to be paid out to
     8,600 National Guard Soldiers at an estimated value of $7,020,970.


Potential Monetary Benefits
     Our limited review identified $79,537 of erroneous payments to Army National
     Guard soldiers who left the counterdrug program in FYs 2005 and 2006.
     Recouping all additional erroneous payments will result in a potential monetary
     benefit to the National Guard. However, this amount is not yet quantifiable.

                                         21
    Also, as of September 1, 2007, there were 63,827 days of leave scheduled to be
    paid out to 8,600 National Guard soldiers. We estimate a $7,020,970 cost to the
    National Guard if all these days are paid out as scheduled. Ceasing all additional
    erroneous leave payments will result in up to a maximum of $7,020,970 of funds
    put to better use for the National Guard Bureau.


Recommendations and Management Comments
    C.1. We recommend that the Director, Standards and Compliance, Military
    Pay, Defense Finance and Accounting Service:

               a. Identify and correct the causes for the inaccurate leave balances
    in the Defense Joint Military Pay System-Reserve Component and ensure
    that the same deficiencies will not occur in the scheduled replacement
    system, the Defense Integrated Human Resources System.

    Defense Finance and Accounting Service Comments. The Deputy Director,
    Compliance, Standards and Compliance, Defense Finance and Accounting
    Service, concurred with the finding and partially concurred with the
    recommendation. The Deputy Director concurred with the finding regarding the
    systemic problems that reside in the Defense Joint Military Pay System-Reserve
    Component. The Deputy Director identified the causes for the problems and
    stated that corrective action will be taken through manual procedures. The
    Deputy Director will continue to monitor the affected accounts until the
    replacement system, the Defense Integrated Military Human Resources System, is
    implemented. The Deputy Director partially concurred with the recommendation
    and stated that DFAS is unable to ensure that the Defense Integrated Military
    Human Resources System will be accurate on leave pay issues. The Deputy
    Director stated that they are able to influence the Defense Integrated Military
    Human Resources System design and have done so by preparing and forwarding
    an issue paper on maintaining, calculating, and paying off leave balances for
    National Guard personnel to the Defense Integrated Military Human Resources
    System Executive Program Management Office. The issue paper, dated
    November 6, 2007, identifies design deficiencies within the Defense Joint
    Military Pay System-Reserve Component. The full text of the comments,
    including the issue paper, is located in the Management Comments section of the
    report.

              b. Coordinate with National Guard Bureau Payroll and Internal
    Review personnel to verify that all payments processed for leave sold in
    FYs 2006 and 2007 were valid, and ensure that all future payments for
    outstanding leave are valid prior to disbursement.

    Defense Finance and Accounting Service Comments. The Deputy Director,
    Standards and Compliance, Defense Finance and Accounting Service, concurred
    with the finding and partially concurred with the recommendation. The Deputy
    Director agreed to provide assistance to National Guard Bureau Payroll personnel
    in correcting identified erroneous leave balances. The Deputy Director stated that

                                        22
DFAS could not identify or validate the accuracy of current or prior leave
balances because only the Services have access to the leave data and overall
controls over leave taken, corrected, or canceled. The Deputy Director stated that
DFAS would assist in correcting and collecting for erroneous periods of paid
leave and take immediate action to correct accounts, if necessary.

C.2. We recommend that the Chief, National Guard Bureau coordinate with
the Defense Finance and Accounting Service to verify that all payments
processed for leave sold in FYs 2006 and 2007 were valid, and ensure that all
future payments for outstanding leave are valid prior to disbursement. Until
the deficiencies in the Defense Joint Military Pay System-Reserve
Component can be corrected, this validation should require National Guard
payroll personnel to perform the required file adjustments for inaccurate
leave balances and to validate potential leave payments identified on
exception reports issued by the National Guard Bureau Financial Services
Center.

Departments of the Army and the Air Force National Guard Bureau
Comments. The Chief of the Counterdrug Division, National Guard Bureau,
concurred and stated that they will request that the Defense Finance and
Accounting Service verify the validity of all leave payments for FY 2006 and
2007. The Chief also will direct the United States Property Fiscal Officers to
monitor all leave payments and ensure that programs for leave balance
adjustments are enforced.




                                    23
Appendix A. Scope and Methodology
   We conducted this financial audit from February 2007 through October 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions, based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions, based on our audit
   objectives.

   We visited, or collected data from, the Air Force counterdrug program office, as
   well as Air Force and Joint Commands that received FY 2006 counterdrug funds.
   These organizations included the U.S. Central Command, U.S. Northern
   Command, Joint Task Force North, and the Air Force Drug Testing Laboratory.
   We also visited Air Combat Command organizations at Langley Air Force Base
   and Davis-Monthan Air Force Base. In addition, we visited United States
   property fiscal officers and National Guard Bureau counterdrug coordinators in
   Ohio, Indiana, Kentucky, Texas, California, Florida, Arizona, and Utah. We also
   visited and collected information from National Guard Bureau Headquarters,
   Defense Finance and Accounting Service (DFAS), and the Deputy Assistant
   Secretary of Defense Counternarcotics, Counterproliferation, and Global Threats
   (DASD [CN/CP/GT]). We interviewed personnel involved with the counterdrug
   program as well as financial management personnel. In addition, we reviewed
   information on counterdrug obligations and expenditures, including supporting
   source documentation. The source documentation included active duty orders,
   contracts, invoices, and receipts.

   The Air Force reported $153.1 million in obligations related to the counterdrug
   program for FY 2006 year-end reporting submitted to DASD (CN/CP/GT). We
   selected six sites that reported the highest value of FY 2006 Air Force
   counterdrug obligations. For the sites we visited, we used non-statistical
   sampling methods. We judgmentally selected transactions, generally focusing on
   those with the highest dollar value, as well as transactions that lacked a unique
   document identifier code. In total, we reviewed 170 items valued at $114.4
   million. We obtained and reviewed source documentation that was provided as
   support for each transaction value and verified that the funds were used for
   counterdrug purposes. Our scope was limited in that we did not select
   counterdrug obligations and expenditures related to civilian pay for Air Force and
   Joint Command personnel involved with the DoD counterdrug program. The
   civilian pay transactions were not identified by unique document identifier codes
   and would require significant resources to audit.

   The National Guard reported $262.3 million in obligations related to the
   counterdrug program for FY 2006 year-end reporting submitted to DASD
   (CN/CP/GT). We developed a methodology for obtaining detail transaction
   support for the majority of the counterdrug funds expended by the National Guard
   for FY 2006. We selected the five National Guard states that reported the highest
   value of FY 2006 counterdrug obligations. In addition, we selected the Kentucky
   National Guard because of its high value of counterdrug obligations and close
                                       24
    proximity to our audit office. For the National Guard Bureau organizations we
    visited, we used nonstatistical sampling methods. We judgmentally selected
    transactions, generally focusing on those with the highest dollar value and
    transactions that appeared unusual. We selected 301 expenditure transactions,
    valued at $13.6 million, related to personnel, travel, and operation and
    maintenance costs from FY 2006. For each transaction, we reviewed supporting
    source documentation to determine whether funds were accurately reported and
    used for valid counterdrug program activities.

    Use of Computer-Processed Data. To achieve the audit objectives, we relied on
    computer-processed data extracted from the Commanders Resource Integration
    System and Army National Guard accounting systems. We did not perform a
    formal reliability assessment of the computer-processed data from these systems.
    However, we did not find significant errors between the computer-processed data
    and source documents we reviewed that would preclude use of the
    computer-processed data to meet the audit objective or that would change
    conclusions in this report.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of one aspect of the financial management high-risk area.


Prior Coverage
    During the last 5 years, the DoD IG has issued four reports related to the funds
    obligated for the National Drug Control Program. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports.

DoD IG

    DoD IG Report No. D-2007-052, “Independent Auditor’s Report on the DoD
    FY 2006 Detailed Accounting Report of the Funds Obligated for National Drug
    Control Program Activities,” January 29, 2007

    DoD IG Report No. D-2006-047, “Independent Auditor’s Report on the DoD
    FY 2005 Detailed Accounting Report of the Funds Obligated for National Drug
    Control Program Activities,” January 26, 2006

    DoD IG Report No. D-2006-012, “Report on Controls Over Funds Used by DoD
    for the National Drug Control Program,” November 7, 2005

    DoD IG Report No. D-2005-030, “Independent Auditors Report on the DoD
    FY 2004 Detailed Accounting Report of the Funds Expended on National Drug
    Control Program Activities,” January 26, 2005




                                        25
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Policy)
  Assistant Secretary of Defense (Special Operations/Low Intensity Conflict)
  Deputy Assistant Secretary of Defense (Counternarcotics, Counterproliferation,
     and Global Threats)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Assistant Secretary of the Air Force (Budget)
General Counsel, Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Standards and Compliance, Military Pay, Defense Finance and Accounting
   Service
Chief, National Guard Bureau
   Director, Army National Guard
   Director, Air National Guard

Non-Defense Federal Organization
Office of Management and Budget



                                          26
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      27
Department of the Air Force Comments




                     29
Departments of the Army and the Air Force
National Guard Bureau Comments




                      30
31
32
33
Defense Finance and Accounting Service
Comments




                      34
35
36
37
Deputy Assistant Secretary of Defense for
Counternarcotics, Counterproliferation, and
Global Threats Comments




                      38
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Amy J. Frontz
Anthony C. Hans
Kevin C. Currier
James C. Darrough
Brian L. Henry
Catherine Bird
Ellen Kleiman-Redden
